Case No. 20-__

In The

Supreme Court of the United States
ANNA VALENTINE, Warden
Petitioner
v.
JOHNNY PHILLIPS
Respondent
On Petition for Writ of Certiorari to the United
States Court Of Appeals for the Sixth Circuit
Case No. 18-6184

CERTIFICATE OF COMPLIANCE
I, Courtney J. Hightower, Assistant Attorney General of the Commonwealth of
Kentucky as Counsel for Petitioner, certify that the foregoing Petition for Writ of
Certiorari was typed using Century Schoolbook 12-point font, as set forth in Rule
33(1)(b) of the Rules of the Supreme Court of the United States, contains 3,141 words
and that this petition conforms to all the specifications set forth in Rule 33 of the
Rules of the Supreme Court of the United States.

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 5, 2021.

/s/Courtney J. Hightower
Courtney J. Hightower
Counsel for Petitioner
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive
Frankfort, Kentucky 40601
(502) 696-5342
Counsel for Petitioner

2

